No.

IN THE SUPREME COURT OF THE UNITED STATES

Shakeel Kahn, PETITIONER

VS.
UNITED STATES, RESPONDENT
PROOF OF SERVICE

1, BEAU B. Brindley, do swear or declare that on this date, July 26, 2021, as
required by Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE
TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party’s counsel, and on
every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and
with first-class postage prepaid.

The names and addresses of those served are as follows:

Solicitor General of the United States
Room 5614, Department of Justice
950 Pennsylvania Ave., N.W.
Washington, D.C. 20530-0001

I declare under penalty of perjury that the foregoing is true and correct. Executed

on July 26, 2021

Bégdu B. Brindley

COUNSEL OF RECORD

For Petitioner Shakeel Kahn
Law Offices of Beau B. Brindley
53 W Jackson Blvd. Ste 1410
Chicago IL 60604
(812)765-8878
bbbrindley@gmail.com
